No. 21-219

 

In the
Supreme Court of the United States

 

Clear Channel Outdoor, LLC,
Petitioner,
ve

Henry J. Raymond, Director,
Department of Finance of
Baltimore City,

Respondent.

 

On Petition for Writ of Certiorari to
the Court of Appeals of Maryland

RESPONDENT'S OPPOSITION TO MOTION FOR LEAVE TO FILE
AMICUS CURIAE BRIEF OF OUT OF HOME ADVERTISING
ASSOCIATION OF AMERICA

JAMES L. SHEA
STEVEN J. POTTER
MICHAEL REDMOND
Counsel of Record
LYDIE E. GLYNN
MATTHEW O. BRADFORD
Baltimore City Law Department
100 N. Holliday Street, Suite 101
Baltimore, MD 21202
(410) 396-7536
michael.redmond@baltimorecity.gov

Counsel for Respondent
September 22, 2021
This Court should deny the motion by the Out of Home Advertising Association
of America (“OAAA”) for leave to file an amicus curiae brief in support of Petitioner
because OAAA did not comply with the procedural rules of this Court. As OAAA
admits in its motion, “OAAA did not provide Respondent with notice of this brief 10
days before the filing.” OAAA Motion for Leave, p. 3; see also OAAA Brief, p. 1 n.1
(“Respondent did not receive timely notice of this filing and has not consented.”).
The text of Rule 37.2(a) plainly states that “[a]ln amicus curiae filing a brief under
this subparagraph shall ensure that the counsel of record for all parties receive notice
of its intention to file an amicus curiae brief at least 10 days prior to the due date for

the amicus curiae brief.” Id. OAAA did not provide such timely notice.

Instead, OAAA informed Respondent of its intention to file the day before
amicus curiae briefs were due. At that point, Respondent had already drafted its
brief in opposition, without the benefit of knowing that OAAA planned to file an
amicus curiae brief. Respondent informed OAAA that under Rule 37.2(a), notice to
all parties was required 10 days before filing, but OAAA insisted that it would file a
motion for leave to file such a brief in spite of its violation of this requirement. If this
Court’s procedural rules are to be honored, and if parties are to be able to rely on the

timelines set forth therein, OAAA’s motion should be denied.

Respondent therefore asks this Court to deny the motion for leave to file an

amicus curiae brief.
Respectfully submitted,

JAMES L, SHEA
STEVEN J. POTTER

—— ae
pe
MICHAEL REDMOND

Counsel of Record

LYDIE E. GLYNN

MATTHEW O. BRADFORD

Baltimore City Law Department
100 N. Holliday Street, Suite 101
Baltimore, MD 21202

(410) 396-7536
michael.redmond@baltimorecity.gov

September 22, 2021
